CERTIFICATE OF COMPLIANCE
Case No. 20-210
Caption : Jing Shu Zheng, Petitioner v. Christina
Ellis, et Vir
As required by Supreme Court Rule 33.l(h),
I certify that the document contains 1,173 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the fore
going is true and correct.
Executed on September 18, 2020.

s

cord Press, Inc.

Sworn to before me on
September 18, 2020
NADIA R. OSWALD HAMID
Notary Public, State of New York
No. 010S6101366
Co

Notary Public

